2020 IL App (1st) 180038-U
THIRD DIVISION
June 30, 2020

No. 1-18-0038
IN THE
APPELLATE COURT OF ILLINOIS
FIRST JUDICIAL DISTRICT
THE PEOPLE OF THE STATE OF ILLINOIS,
Plaintiff-Appellee,
v.
VICTOR WILLIS,
Defendant-Appellant.

)
)
)
)
)
)
)
)
)

Appeal from the
Circuit Court of
Cook County.
No. 14 CR 3934
Honorable
Thaddeus L. Wilson,
Judge Presiding.

JUSTICE HOWSE delivered the judgment of the court.
Presiding Justice Ellis and Justice Cobbs concurred in the judgment.
SUMMARY ORDER
f1

Defendant, Victor Willis, appeals his 75-year prison sentence on the basis that the

sentence violates the eighth amendment of the United States Constitution and the proportionate
penalties clause of the Illinois Constitution as applied to his circumstances. Defendant’s asapplied constitutional challenges were not raised before the trial court, but instead are presented
for the first time on appeal. We are precluded from hearing defendant’s as-applied constitutional
claims by our supreme court’s decision in People v. Harris, 2018 IL 121932,

34-61. In

Harris our supreme court held courts of review are unable to entertain an “as applied”
constitutional claim raised for the first time on appeal because a record developed in an
evidentiary hearing is required to entertain such a claim. This court may dispose of an appeal by
■fro

A

1-18-0038
a summary order when the panel unanimously determines, inter alia, that “the disposition is
clearly controlled by case law precedent[.]” Ill. S. Ct. R. 23(c)(2) (eff. Apr. 1, 2018).
f2

Defendant was found guilty of first degree murder. Defendant was 22 years old at the

time of the offense. Defendant was subsequently sentenced to 75 years’ imprisonment which
sentence was comprised of 55 years for first degree murder and a 20-year firearm add-on
because he was found to have personally discharged a firearm during the murder. The only issue
raised in this appeal is defendant’s contention that his 75-year prison sentence violates the eighth
amendment of the United States Constitution and the proportionate penalties clause of the
Illinois Constitution as applied to his circumstances.
If 3

.

Our supreme court’s controlling decision in Harris, 2018 IL 121932, is directly on point

and forecloses as-applied challenges, such,as defendant’s challenges here, not first raised in the
trial court. Id. at Ijf 34-61. m Harris, the defendant who was 18 years old at the. time of his
offenses challenged the constitutionality of his sentence raising an as-applied challenge under the
proportionate penalties clause of the Illinois Constitution as well as a facial challenge pursuant to
the eighth amendment of the United States Constitution. Id. With respect to his as-applied
challenge, the defendant argued the statutory sentencing scheme as applied to him resulted in a
mandatory de facto life sentence. Id. at % 37. However, the court declined to address the
defendant’s as-applied challenges raised for the first time on direct appeal reasoning there was
not a sufficiently developed record of the facts and circumstances relative to the defendant’ s
claims and without such a record and finding that the statute is unconstitutional, his as-applied
challenges were premature. Id. at ^jf 38-40, 53. The court held:
■

...

•

-

■,

“A court is not capable of making an ‘as applied’ determination of
unconstitutionality when there has been no evidentiary hearing and no findings of
-2-

1-18-0038
■V

fact. [Citation.] Without an evidentiary record, any finding that a statute is
unconstitutional ‘as applied’ is premature. [Citations.]” (Internal quotation marks
omitted). Id. at f 39.
U4

CitingPeople v. Holman, 2018 IL 121932, defendant argues that “as-applied challenges

may be addressed for the first time on appeal if the record is sufficiently developed” and
contends the reasoning in Holman is applicable here. However, in Harris, the court rejected the
defendant’s contention that the record was sufficiently developed to warrant review
distinguishing the defendant’s circumstances from the “very narrow exception” in Holman.
Harris, 2018 IL 121932, f 44. Harris held that an “as applied” challenge to a life sentence
brought by a minor required no further record development except to establish the fact that the
defendant was a minor whereas an as-applied challenge brought by an adult required an
evidentiary hearing. Id. at
^5

43-45.

On this point, the court highlighted the fact that Holman’s challenge to his life without

parole sentence pursuant to Miller v. Alabama, 132 S. Ct. 2455 (2016), (which prohibited
mandatory life sentences for juveniles who commit murder) raised “purely legal issues” leaving
only a determination of whether the trial court adequately considered the Miller factors at the
original sentencing hearing which could be determined on the cold record. Harris, 2018 IL
121932,

43-45. This was the case solely because, like the defendant in Miller, Holman was a

juvenile when he committed the offense at issue. Id. at % 44. Distinguishing the defendant in
Harris from Holman, the court noted Harris, like the defendant here, was an adult at the time of
his offenses such that Miller would not directly apply. Therefore, a sufficiently developed record
was required in order to address the defendant’s claim that Miller applied to his particular
circumstances. Id. at f 45. The court further declined to remand the constitutional claim for an
IX

-3-

ly

*

1-18-0038

<*'•

evidentiary hearing in the trial court stating it believed the issue would be “more appropriately
r

raised in another proceeding.” Id. at ^ 48.
16

Similarly, because defendant in this case was an adult when he committed the offense at

issue, we find the limited exception set forth in Holman does not apply to allow our review. See
id. at

17

43-45;

"..

While this court is precluded from reviewing defendant’s premature as-applied

constitutional challenges, as in Harris, we note that our decision here does not foreclose any
avenues in other proceedings that may be available to defendant to raise his constitutional
challenges. See id. atff 34-48, 53.

■i

\ ■■'■i

18

Appeal affirmed in accordance with Illinois Supreme Court Rule 23(c)(2)

19

Affirmed.

v; y -

_•_

<.

£
4

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035
FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

Victor Willis
Reg. No. M40801
Menard Correctional Center
P.O. Box 1000
Menard IL 62259

In re:

January 27, 2021

Peopie State of iiiinois, respondent v. Victor Vv'iliis, petitioner.
Leave to appeal, Appellate Court, First District.
126552

Supreme Court today DENIED the Petition for Leave to Appeal in the above
The
entitled cause.
The mandate of this Court will issue to the Appellate Court on 03/03/2021.

Very truly yours,

3*

‘

*’

L

#•

' •'

i

•L

J

rr-r ,o

Clerk's Office

Appellate Court First District
State of Illinois
160 North LaSalle Street, Rm SHOO
Chicago, Illinois 60601

August 31, 2020
RE: PEOPLE v. VICTOR WILLIS
General No.: 1-18-0038
County: Cook County
Trial Court No: 14CR3934
The Court today denied the petition for rehearing filed in the above entitled cause. The mandate
of this Court will issue 35 days from today unless a petition for leave to appeal is filed in the
Illinois Supreme Court.
If the decision is an opinion, it is hereby released today for publication.

Thomas D. Palella
Clerk of the Appellate Court
c:

tVroi-jnATT.

w':

!*)

;

7

:•.
•v
f

i

4

;

?

i

Clerk’s Office

Appellate Court First District
Thomas D. Palella
Clerk

State of Illinois
160 North LaSalle Street, Rm S1400
Chicago, Illinois 60601

September 3, 2020
Mr. Victor Willis
M40801
Menard Correctional Center
P.O. Box 1000
Menard, IL 62259
Re: 1-18-0038

Dear Mr. Willis:
This is in response to your recent request for a copy of your Appellate Court docket
sheet. We do not keep docket sheets in the Appellate Court that are available for the public. I
can, however, tell you that your Notice of Appeal was filed in the Circuit Court on October 11,
2016, and transmitted to the Appellate Court January 5, 2018. A decision was entered by
Summary Order on June 30, 2020. A Petition for Rehearing was filed August 10, 2020, and
denied August 31, 2020.1 am enclosing a copy of the August 31, 2020 Court Order with this
letter.

Very truly yours,

I. Maness
U Julia
Administrative Attorney

*
it

rm

*

t

>
l

rr

K>V

:

*:

r..JV> v '

c

2-. s

V

;

4-

V'fl

